SUPPLEMENTAL AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-1501
X
ROMAN CATHOLIC DIOCESE OF ALBANY, ET AL.,
Petitioners,
v.
LINDA A. LACEWELL, SUPERINTENDENT, NEW YORK DEPARTMENT
OF FINANCIAL SERVICES, ET AL.,
Respondents.
X
STATE OF NEW YORK )
COUNTY OF NEW YORK )
1, Mariana Braylovskiy, being duly sworn according to law and being over the age of
18, upon my oath depose and say that:
I am retained by Counsel of Record for Amici Curiae.
That on the 28th day of May, 2021, I served the BRIEF FOR THE STATES OF
TEXAS, ALABAMA, ALASKA, ARIZONA, ARKANSAS, FLORIDA, GEORGIA,
KANSAS, KENTUCKY, LOUISIANA, MISSISSIPPI, MISSOURI, MONTANA,
NEBRASKA, OHIO, OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA,
TENNESSEE, UTAH, AND WEST VIRGINIA AS AMICI CURIAE IN SUPPORT OF
PETITIONERS in the above-captioned matter upon:
Keith B. Caughlin
SCHWERZMANN & WISE, P.C.
220 Sterling Street
P.O. Box 704
Watertown, NY 13601
(315) 788-6700
caughlin@schwerzmannwise.com
Counsel for Respondent, Murnane Building Contractors, Inc.
by sending three copies of same, addressed to each individual respectively, and enclosed
in a properly addressed wrapper, through the United States Postal Service, by Express
Mail, postage prepaid.
On May 27, 2017, an electronic version of the Brief was served by email.

All parties required to be served have been served.
1 declare under penalty of perjury that the foregoing is true and correct.
Executed on this 28th day of May, 2021.

gi.Mr4W-4161

Ptak

Mariana Braylovskiy
Sworn to and subscribed before me this 28th day of May, 2021.

MARIA MAISONET
Notary Public State of New York
No. 0IMA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2025

0304510

COUNSEL PRESS
(800) 274-3321•(800) 359-6859
www.counselpress.com

